No.
DENIS QUINETTE,
Petitioner,
v.
DILMUS REED, CHIEF LYNDA COKER, CHIEF DEPUTY
MILTON BECK, COLONEL DONALD BARTLETT, COLONEL
LEWIS ALDER, COLONEL JANICE PRINCE, COLONEL
ROLAND CRAIG, and SHERIFF NEIL WARREN,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that, pursuant to Supreme Court Rule
29.5(a), a copy of the Petition for a Writ of Certiorari
was sent to the U.S. Supreme Court by first class mail
and a copy was sent to unrepresented Respondent
Dilmus Reed and to counsel for represented
Respondents by first class mail on March 18, 2021.
H. William Rowling, Jr.
Lauren S. Bruce
COBB COUNTY
ATTORNEY’S OFFICE
100 Cherokee Street
Suite 350
Marietta, Ga 30090

Dilmus Reed
165 Reservoir Drive
Apt. 712
Canton, GA 30114

/s/ Mark Begnaud
Counsel of Record

